1a

VIRGINIA:
Jtt the Supreme Gowd of. Virginia Held at the Supreme Gawd Studding, in the.
GUg of Stkhmond on Snidag the 5th dag of Se&maxg, 2C21.
Brian David Hill,
against

Appellant,

Record No. 200267
Circuit Court No. CL19000331-00

Commonwealth of Virginia,

Appellee.
Upon a Petition for Rehearing

On consideration of the petition of the appellant to set aside the judgment rendered herein
on December 21,2020 and grant a rehearing thereof, the prayer of the said petition is denied.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

Deputy Clerk

347

2a

VIRGINIA:
Jnthe Supreme Qowtt of VvtgiHia held al the Supteme Cowti {Budding in the
City, of {Richmond on Monday, the 21at day of jDecem&ev, 2020.
Appellant,

Brian David Hill,
against

Record No. 200267
Circuit Court No. CL 19000331-00
Appellee.

Commonwealth of Virginia,
From the Circuit Court of the City of Martinsville

Upon review of the record in this case and consideration of the argument submitted in
support of the granting of an appeal, the Court refuses the petition for appeal. Brian David Hill
challenges the judgment of the Circuit Court of the City of Martinsville dismissing his petition
for a writ of habeas corpus. On November 18, 2019, Hill filed a petition for a writ of habeas
corpus in the circuit court challenging his misdemeanor conviction for indecent exposure. In his
petition, Hill indicated that on November 15,2019, he received a sentence of 30 days in jail and
that, at the time of filing, he was not in custody or under any type of probation or suspended
sentence from his indecent exposure conviction. Because Hill had fully served his sentence at
the time he filed his petition, the circuit court lacked jurisdiction to award habeas relief under
Code § 8.01-654. See Escamilla v. Superintendent, 290 Va. 374, 380-81 (2015) (holding that
detention is jurisdictional in habeas Corpus, and jurisdiction must exist at the time the petition is
filed). Accordingly, the Court is of the opinion there is no reversible error in the judgment
below.
The rule to show cause previously entered herein is discharged.
A Copy,
Teste:
Douglas B. Robelen, Clerk

l

By:
Deputy Clerk

3

n

1

No.21-

3Jn
Supreme Court <&l ®f)e
?Hmtetr States
BRIAN DAVID HILL,
Petitioner\
v.
COMMONWEALTH OF VIRGINIA,
Respondent,

On Petition for a Writ of Certiorari to
the Supreme Court of Virginia

AFFIDAVIT OF SERVICE
Brian David Hill
Pro Se
Ally of QANON
Former USWGO Alternative News
Reporter
310 FOREST STREET, APARTMENT 2
MARTINSVILLE, VIRGINIA 24112
Tel.: (276) 790-3505
E-Mail: Nn Email

mmG.o.
4

*
% .

**

Friend ofjustice

JusticeForUSWGrO.wordpress.com
JusticeForUSWGrO.NL

I HEREBY CERTIFY that on April 1, 2021, two (2) copies
of the PETITION FOR A WRIT OF CERTIORARI and two (2)
copies of the MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS (Affidavit included) in the above-captioned case were
served, as required by U.S. Supreme Court Rule 29.5, on the
following:
1. RACHEL LYNSIE YATES (ESQ.)
Office of The Attorney General
Email: service@oag.state.va.us
Phone Number: (804)786-2071
202 N 9th St
Richmond, VA, 23219-3424
2. Glen Andrew Hall, Esq.
The Office of the Commonwealth Attorney
For the City of Martinsville
Phone: 276-403-5470
Fax: 276-403-5478
Email: ahall@ci.martinsville.va.us
55 West Church Street
P.O. Box 1311
Martinsville, Virginia 24114
Since Petitioner is proceeding pro se without representation of
counsel and under Supervised Release conditions not allowing
Petitioner to use the internet, email service cannot possibly be made
on the Respondents or their Attorneys. Disclaimer: The only reason
Petitioner types up JusticeforUSWGO.wordpress.com is to promote a
political website that his friends/family operate to ask for justice
for Brian D. Hill, the former alternative news reporter of
2

USWGO Alternative News, and does not mean any access to the
internet was used to type up that address in any brief or letter
or pleading. Petitioner does not have access to email and cannot
email any of the Respondents in this case.
Service of process was done by mailing RACHEL LYNSIE
YATES (ESQ.) and personally delivering one copy of PETITION
and MOTION to the office of Glen Andrew Hall, Esquire.
I have served one (1) copy of both the MOTION and
PETITION by personally
delivering to the Office of
Glen

Andrew

Esquire,

on

Hall,

April

1,

'u/ccL
r\

W\\ K - H* !- 3 I

2021. I have received a
note

TT)

acknowledging

accepting three documents.
See the note to the right of
this

page.

This

note

came directly from the
Commonwealth
Attorney Office. The two
documents of the three
are the PETITION FOR

-;
3

A WRIT OF CERTIORARI and MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS. This note is not the usual
form but is treated as an official proof of receipt from the
Commonwealth Attorney Office. Two of the three documents
which were accepted by the Office of the Commonwealth
Attorney are the PETITION FOR A WRIT OF CERTIORARI and
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS.
The Office of The Attorney General of Virginia, under
counsel: RACHEL LYNSIE YATES (ESQ.) was served one (1)
copy of both the PETITION and MOTION with affidavit included
by a mailing under certified mail tracking number 9407-13689523-2787-2694-95. Proof of certified mail photocopy of mailing
label is attached. Roberta Hill ordered the mailing label for Brian
D. Hill to use for this process of a mailing label with postage
prepaid.
That should serve all known Respondents and satisfy the
service requirement by the U.S. Supreme Court.
Also, a copy of the PETITION FOR A WRIT OF
CERTIORARI was filed with the Supreme Court of Virginia on
April 1, 2021, even though they are not a Respondent. It was filed
through their Virginia Court eFiling System (“VACES”) by and
through Roberta Hill my filing Assistant by filing on my behalf
4

since I cannot use the Internet. The Clerk notified Roberta Hill
that they had reviewed and accepted such filing and that Petition
is also on record with the Supreme Court of Virginia, so they are
aware of the petition with the U.S. Supreme Court.
Declaration pursuant to 28 U.S. Code § 1746.
<EVIDENCE ATTACHED TO THIS AFFIDAVIT OF SERVICE>
I declare under penalty of penury that the foregoing is true and
correct.
Executed on April 1, 2021.
DATED this 1st day of April, 2021.
Respectfully submitted,

m DM

Brian David Hill
Pro Se
Ally of QANON
Former USWGO Alternative News Reporter
310 FOREST STREET, APARTMENT 2
MARTINSVILLE, VIRGINIA 24112
Tel.: (276) 790-3505
E-Mail: No Email

IXS.W.G.O.
5

r

(
:
O)
O)
CO
CM
K

<
S
D

oo

hCM
to
CM

ui
LL

i

in

(XL
UJ

05
00
CO
CO

Z3

©

O
<0
a
</)

r*.

o>

m

2UJ

i

z
UJ

e>o
>- w
UJ UJ
zw
a:

■<*
CM

Hi-

oj

<^
lu y=!

<o

s

tJ
m

CM

™
<
H Z fc >
I (/) ,

•M

LL >: w Q
OjI2
UJ Qj oi ^

o xz
u. o CM

X
o
CM X

'
a!

%

2

a

8c

%o
s£*

e-g

Oo.

No.21-

3Jn ®I)t Supreme Court <&i

c Hmteb States;

BRIAN DAVID HILL,
Petitioner,
v.
COMMONWEALTH OF VIRGINIA,
Respondent,
On Petition for a Writ of Certiorari to the
Supreme Court of Virginia

PETITION FOR A WRIT OF
CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. 2,1 certify that the Petition
document is at least 40 pages, including the parts of the document that
are exempted. Font size for the Petition is 12 and/or 12.5, Type is New
Century Schoolbook. The Supreme Court name on the cover sheet is Old
English Text MT, just for the cover.
I declare under penalty of peijury that the foregoing is true and correct.
Executed on April 1, 2021.

Erian D. Hi([
Brian D. Hill

Brian David Hill
Pro Se
Ally of QANON
Former USWGO Alternative News Reporter
310 FOREST STREET, APARTMENT 2
MARTINSVILLE, VIRGINIA 24112
Tel.: (276) 790-3505
E-Mail: No Email

US.W.G.O.

JusticeForUSWGQ.wordpress.com
1

